Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Community Oriented Policing Services Grants to the Hopkins Park Police DepartmentHopkins Park, Illinois

GR-50-03-002


January 2003
Office of the Inspector General


EXECUTIVE SUMMARY

The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the Hopkins Park, Illinois Police Department (Hopkins Park PD).  The purpose of the grant is to enhance community policing.  The Hopkins Park PD was awarded a total of $577,673 to hire ten new full-time police officers.

We reviewed the Hopkins Park PD's compliance with six essential grant conditions.  The types of community policing activities being performed were acceptable.  However, we found the Hopkins Park PD to be in material non-compliance with COPS' grant requirements for:  budgeting for local officer positions, hiring of additional officers, meeting local match requirements, requesting reimbursements, and retaining officer positions.  As a result, we question the entire amount of supplement grant funds received, or $577,673.1

Although the Hopkins Park PD received full reimbursement for the entire grant amount, which was to fund ten full-time officers, the size of its full-time police force was never greater than nine, and averaged only six officers over the grant period.
The Hopkins Park PD charged $265,061 in unallowable costs, including overtime, to the grant.
The Hopkins Park PD did not retain the grant-funded officer positions after the grant expired on December 31, 2001.  At the end of the grant period the village terminated the grant-funded officers.  Their positions should have been retained until April 30, 2003.
By the time of our audit, the Hopkins Park PD had not provided any of the required local matching funds.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.



Footnotes

The Inspector General Act of 1988 contains our reporting requirements for questioned costs.  However, not all findings are dollar-related.